                                CLOSEOUT FOR M98030010




          In [redacted] 1998 the Office of Inspector General ("OIG") was informed of allegations
  of plagiarism and violation of confidentiality of peer review against a university professor'
  (the "subject"). Our inquiry determined that there was substance to the allegations and we
' deferred the investigation to the University. The University determined that the same
  plagiarized text was included in several versions of a [redacted] proposal, which was later
  funded. The University determined that the subject's actions were misconduct in science.
  OIG accepted the University's report as being fair, accurate and complete, and incorporated
  the University's findings into its investigation report.

        OIG's investigation report and NSF's Acting Deputy Director's [redacted] letter
 describing his determination constitute the closeout for this case.




 CC: IG, Integrity




   [Footnote redacted]

                                       Page 1 of 1
                       NAllONAL SCIENCE FOUNDATIC
                           4201 WILSON BOULEVARD
                          ARLINGTON, VIRGINIA 22230


                                   December 10, 1999


   OFFICE Of THE
  DEPUTY DIRECTOR

 CERTIFIED MAIL --RETURN RECEIPT REOUESTED




Re:    Notice of Misconduct in Science Determination - -
      - .




In October, 1997, y
proposal to the Div
Foundation entitled
documented in the a
Office of ' Inspector General (OIG),
plagiarized text.
Scientific Misconduct and Proposed Sanctions
Under NSF1s regulations, "misconduct" is defined to include
"plagiarism, or other serious deviation from accepted practices
in proposing, carrying out, or reporting results from activities
funded by NSF." 45 CFR. §689.l(a).
            proposal contains verbatim and paraphrased text and
                an NSF proposal which he reviewed1. By submitting
a proposal to NSF that copies the ideas or words of another
without adequate attribution, as described in the Investigation
Report, he misrepresented someone else's work as his own. This
constitutes plagiarism as well as a serious deviation from
acce~ted~racticeswithin the scientific communitv. I therefore
conciude that .           committed misconduct in science under
NSF1s regulations.
NSF1s regulations establish three categories of actions (Group I,
11, and 111) that can be taken in response to a finding of
misconduct. 45 CFR §689.2(a). Group I actions include issuing a
    letter of reprimand conditioning awards on prior approval of
    particular activities from NSF; and requiring certifications on
    the accuracy of reports or assurances of compliance with
    particular requirements. 45 CFR 8689.2(a) (1). Group I 1 actions
    include restrictions on designated activities or expenditures;
    and special reviews of requests for funding. 45 CFR
    S689.2(a)(2). Group I11 actions include suspension or
    termination of awards; debarment or suspension from participation
    in NSF programs; and prohibitions on participation as NSF
    reviewers, advisors or consultants. 45 CFR 5 689.2(a)( 3 ) .
    In deciding what response is appropriate, NSF has considered the
    seriousness of the misconduct, whether it was deliberate or
    careless; whether it was an isolated event or part of a pattern;
'   and whether the misconduct affects only certain funding requests
    or has implications for any application for funding involving the
    subject of the misconduct finding. See 45 C.F.R. §689.2(b).
    A mitigating factor is that a relatively small portion of the
    proposal was plagiarized. However, the plagiarism is more
    serious b e c a u s e p l a g i a r i z e d from a proposal which he
    received in confidence as a peer reviewer.
                                 has already taken several steps to
                                 t, including the imposition of a
    two-year probationary period. I, therefore, take the following
    action:
                   submits any proposals to NSF within two years
-from
  !?fI the ate of this letter, he must simultaneously submit a
copy of the proposal along with a separate written certification
to the Office of Inspector General, 4201 Wilson Boulevard,
Arlington, Virginia 22230. The certification shall state that he
has reviewed N S F 1 s Misconduct in Science Regulation (45 C.F.R.
Part 689) and that the proposal contains no plagiarized material.
   For the same time period, if            submits . aproposal to
NSF, he must ensure that his De-hairperson            or the
equivalent simultaneously submits an assurance to Office of
Inspector General that, to the best of that person's knowledge,.
the proposal does not contain any plagiarized material.
  i           s excluded from serving as an NSF peer reviewer,
adviser or panelist until two years from the date of this letter.
Procedures Governins Awweals
Under NSF1s regulations, your client has 30 days after receipt of
this letter to submit an appeal of this decision, in writing, to
the Director of the Foundation. 45 CFR 5689.9(a). Any appeal
should be addressed to the Director at the National Science
Foundation, 4201 Wilson Boulevard, Arlington, Virginia 22230.
For your information we are attaching a copy of the applicable
regulations. If you have an questions about the foregoing,
please call Lawrence Rudolph, General Counsel, at (703) 306-1060.

                                 Sincerely,


                                 Joseph Bordogna


Enclosures
         Confidential




*   Office of Inspector General

       Investigation Report




          OIG Case M98030010
     REPORT OF INVESTIGATION INTO ALLEGATIONS OF
                MISCONDUCT IN SCIENCE


                                     SUMMARY

        The Office of Inspector General (OIG) has concluded that [redacted] (the
"subject"), an Associate Professor of [redacted] from [redacted] (the "University"),
plagiarized from a proposal that he received from the National Science Foundation
(NSF) for confidential peer review into proposals he submitted to NSF and to the
[redacted]. The University conducted an inquiry and investigation into the allegation,
and found the subject violated the confidentiality of peer review when he plagiarized
that material, hence, misconduct in science. The subject has acknowledged his
responsibility for the plagiarism and violation of confidentiality of peer review. We
concur with the University's finding.

       We recommend that NSF find that the subject committed misconduct in
science and take the following actions as a final disposition in this case.

1. The subject should receive a letter of reprimand from the NSF Deputy Director
   informing him that he committed misconduct in science.

2. For 2 years after the final disposition of this case, when proposals are submitted by
   the subject or on his behalf to NSF, he should be required to submit certifications
   to OIG that, to the best of his knowledge, they contain nothing that violates NSF's
   Misconduct in Science and Engineering regulation (45 C.F.R. part 689).

3. For the same period, the subject should be required to ensure that his department
   chairperson, or equivalent, submits an assurance to OIG that, to the best of that
   person's knowledge, the submitted proposals do not contain any plagiarized
   materials and all source documents are properly cited.

4. For the same period, the subject should be prohibited from participating in peer
   review for NSF.
                                          OIG'S INQUIRY                 ,




        OIG received allegations that an NSF proposal' submitted by the subject
contained text and ideas plagiarized from a proposal2 he had received from NSF for
confidential peer review (the "source proposal").' During our inquiry, we found no
evidence of substantive intellectual theft in the subject's NSF proposal, but identified
22 lines of substantially similar text, formulas, and references in its experimental design
and methods section. Four references within the copied text were identical to those
used in the source proposal, with one curious exception. The page and volume
numbers on the subject's reference #94 were incorrect, and actually corresponded with
the page and volume numbers of the subsequent reference in the source proposal. This
error supports the inference that the subject had possession of the source proposal
while preparing his proposal, and incorrectly transcribed the reference information.

         In a response to our inquiry letter," the subject did not specifically address the
textual material that appeared both in his proposal and the source proposal. He
contended that the equations that were used from the source proposal to be "standard
equations," and that he "used the form of the standard equations presented in the
reviewed proposal in my proposal just as I would use a standard equation from the
literature."' He responded to our question about the common references by stating
that these references "are commonly found in [the] literature" and that "no new
information was taken from the reviewed proposal."6 He admitted being
"influence[d]" by the proposal, and that there were "more similarities between the two
proposals than [he would] like."7

      After reviewing the evidence and the subject's response to our inquiry letter,
we concluded that his explanations about the similarities between the two proposals



           - -




I  The subject submitted [redactedlon [redacted]. The subject was the PI. The proposal requested
 [redacted] for 3 years of research support. It was [redacted]. (See Appendix 1: Subject's NSF Proposal.
 Sections that are copied verbatim are highlighted in yellow; sections that are paraphrased are in pink.)
   The source proposal, [redacted], entitled [redacted]. The proposal requested [redacted] for 3 years of
research support, [redacted]. (See Appendix 2: Source Proposal. Sections that are copied verbatim are
highlighted in yellow; sections that are paraphrased are in pink.)
  We later learned that the subject's NSF proposal was a modification of an earlier proposal that was
funded by [redacted]. (See University's Investigation.) In his response to our inquiry, he implied that he
had relied on the source document when revising his NSF proposil. He did not admit that he had
included this same material in two prior [redacted] proposals. He described the development of his
technical approach dating back to a [redacted] NSF proposal, without mentioning the intervening
[redacted] proposals.
  See Appendix 3: OIG's Inquiry Letter.
  See Appendix 4: Subject's Response to OIG's Inquiry Letter, p.19.
  Id., p.20.
'Id., p.21.
were inadequate and there was substance to the allegation. Therefore, we formally
deferred the investigation of this case to the University in [reda~ted].~

                             UNIVERSITY'S INVESTIGATION

      In [redacted], we received the University's investigation report (the " r e p ~ r t " ) . ~
The report found that before submitting his NSF proposal, the subject had copied the
same material into an [redacted] proposal.10

        The investigation committee (the "committee") reported that the subject
"deliberately used a form of an equation evidently unique to the reviewed proposal
because he anticipated that the author of that propcsal would review his pr~posal."'~
The subject admitted that he paraphrased parts of the source proposal, but contended
that the equations and the references were general knowledge in the field, and
therefore, copying them did not constitute plagiarism.12

        After completing their investigation," the committee unanimously determined
that the subject "committed misconduct in science by plagiarizing, i.e., extensive
copying/paraphrasing, the wording of a portion of the proposal that the [subject]
reviewed."14 In addition, they stated that his violation of the confidentiality of peer
review "strik[es] at the very fabric of the peer review process"15and constitutes
"scientific misconduct." The committee determined that the subject's actions were
"P~rp~~ef~1."16


  See Appendix 5: OIG's Deferral Letter. After being notified by the University of the inclusion of the
same material in an [redacted] proposal, [redacted] opened its own misconduct case.
  See Appendix 6: Committee's Investigation Report.
10 ~ e p o p.1.
           g The subject submitted three versibns of a proposal to [redacted]; the second and third
versions included the identical sections of plagiarized material as the subject's NSF proposal. The
subject's first [redacted] proposal ([redacted3 was submitted o n [redacted] and was [redacted]. The
subject was sent the source proposal for review by NSF on [redacted]. The subject submitted the second
version of his [redacted] proposal ([redacted], which included the material plagiarized from the source
proposal, on [redacted]. The subject submitted his NSF proposal, containing the same plagiarized
material, on [redacted]. The third version of his [redacted] proposal ([redactedn, which was submitted
on [redacted] and included the same plagiarized material, [redacted]. Although the subject significantly
reorganized his [redacted] proposal between the second and the third versions, he retained the
plagiarized material intact.
11
    Id., p.9. The subject stated: "It comes down to the basic statement that I did use that equation in his
format knowing that [the author of the source document] was going to review this proposal.n Id., p.3.
    Id., p.5.
l 3 The investigation included 6 deliberative meetings of the committee, 2 investigative hearings, an
interview with the subject's department head, and review of the subject's aforementioned proposals to
[redacted] and NSF, the source proposal, correspondence between the subject and NSF, written and oral
statements by the subject to the inquiry and investigation committees, and various NSF OIG
Semiannual reports. Id., pp.2-3.
14 Report, p.9.

l5   Id., p.11.
l6   Id., p. IO
                                   ACTIONS BY THE UNIVERSITY

       The [redacted] received the committee's report and forwarded it to the
[redacted]. In its report, the committee recommended that the University take the
following actions with regard to the subject:
        1. A formal letter of reprimand from the [redacted] should be issued to the subject
           and placed in the subject's personnel file;
        2. The subject should be placed on probation for 2 years during which: .
                  a) for the first year, the subject will not submit any proposals as a PI or
                      co-PI;
                  b) during the second year, the subject will certify that all proposals he
                     submits as PI or co-PI are free of scientific misconduct;
                  c) during the second year, the head of the Department of [redacted]
                     will certify that any proposal submitted by the subject is free from
                     scientific misconduct;
                  d) the subject will assemble and read scientific misconduct policy
                     statements, will meet with the [redacted] annually to provide
                     evidence that he has increased his understanding and knowledge of
                     misconduct policies, and the [redacted] will certify annually as to
                     whether the subject has successfully accomplished this task; and
                  e) the subject will not participate as a peer reviewer for any proposal,
                     internal or external to the University."

        The [redacted] accepted the committee's report and recommended, in addition
to the actions suggested by the committee, that the [redacted] award be terminated and
all expenditures under the [redacted] award repaid to [redacted].l8 The subject appealed
the decision to impose the additional action.19 The President of the University denied
the subject's appeal, and supported the additional action against the subject.20

                                      OIG'S CONCLUSION

        We believe the University's investigation report is fair, accurate, and complete
in its evaluatidn of the facts. We have used the report as the basis for our own
conclusions about misconduct in science.

       A finding of misconduct in science by NSF against a subject requires that the
subject both committed a bad act and did so with a level of culpable intent that justifies
taking action against the subject. In order to make a finding of misconduct; the subject


"    Id., pp.12-13.
18   See Appendix 7: [redacted].
l9   See Appendix 8: Appeal by the Subject.
20   See Appendix 9: President's Decision on Apped.
must have acted, minimally, with gross negligence. NSF's standard of proof in
evaluating each element of misconduct in science is a preponderance of the evidence.

         The Act

       The subject ultimately admitted that he plagiarized text, formulas, and
references from a proposal. he received from NSF for confidential peer review into the
proposals he submitted to NSF and [reda~ted].~~

        The quantity of mat&ial copied and paraphrased is substantial but not
extensive; however, the fact that the source document was a proposal the subject
received for peer review makes the subject's act more serious. The committee viewed
this violation as "very serious, striking at the very fabric of the peer review pro~ess."~'
The peer review system has been described as a process that "strives to provide fair
(unbiased), careful, and honest evaluation of scientific research. It also can only
operate effectively when authors trust that their manuscripts will be handled in a
responsible, objective and fair fa~hion."~'

        The committee determined that the subject's actions were contrary to accepted
practices in the scientific community, as reflected in the opinion of the Head of the
[redacted] Department. The department head stated that, within his department,
plagiarism is considered scientific misconduct and is an unacceptable pra~tice.'~

         Intent

       The committee concluded that the subject acted "purposely." They stated that
"[plrimary evidence for this conclusion is based on the [subject's] admission that he
used the form of the equation in the reviewed proposal because he assumed that the
author of that proposal would review his proposal."25

        With regard to the subject's intent, we find it troubling that when he responded
to our inquiry letter, at a time when we were unaware of his [redacted] proposals, the
subject dissembled in his explanation to us about the drafting process that led to the
incorporation of plagiarized materials from the source proposal into his NSF
proposal.26 At that time, although he referred to his actions as "~nintentional"~~ and




2' Report, pp.4-6.
22 Id., p.11.
2' David B. Resnik, The Ethics of Science: an introduction, p.46.

24 Report, p.6.

25 Id., p.10.

26 See Footnote 3.
27 See Appendix 4: Subject's ~ e s ~ o n to
                                          s eOIG's Inquiry Letter, p.1.
"lazy",Z8he omitted telling us that he had previously copied this same material into an
[redacted] proposal, and its later revision.

       We are further persuaded of the correctness of the committee's conclusion after
noting that the subject's addition of the p1agiarized.descriptionof the source author's
analytical method followed [redacted] rejection of his earlier proposal, of which a
reviewer particularly noted a weakness in the analytical method. The plagiarized
section, although relatively small in length, added a new analytical method to his
proposal that reduced the uncertainty of his results. 29

             OIG's Conclusion

       We conclude that a preponderance of the evidence supports the conclusion that
the subject committed plagiarism when he knowingly inserted 22 lines of verbatim and
paraphrased text, formulas, and references from the source proposal into his [redacted]
proposal, and subsequently submitted the same plagiarized material in proposals to
NSF and [redacted]. The subject's plagiarism is more serious because he violated the
confidentiality of peer review by using information gathered while participating as an
NSF reviewer.

        The subject's conduct breached two fundamental NSF policies. The proposal
evaluation form submitted by the subject sets out NSF's policy for protecting the
confidentiality of peer review, and it states that reviewers should not "copy, quote or
otherwise use material from this proposal."30 NSF also prohibits plagiarism, and when
he submitted his proposal to NSF the subject certified that "the text and graphics
herein, . . . unless otherwise indicated, are the original work of the signatories or
individuals working under their ~u~ervision."~'     When the subject copied material
from the source proposal, he violated the first policy, and when he copied it into his
own proposal, he violated the second.




       Under § 689.2(b) of NSF's misconduct in science and engineering regulation,
when deciding what actions are appropriate when misconduct is found, NSF officials
should consider any evidence of a pattern, the seriousness of the misconduct, the intent
with which the subject acted, and finally its relevance to other funding requests or
awards involving the University or the subject.

28   Id., p.19.
29  See Appendix 10: [redacted] Written Review of Subject's first [redacted] Proposal and the Subject's
 Subsequent Revision. We note that on page 13 of the subsequent revision, the subject explained that
 "the modifications of this proposal from the original submission are indicated by bold-face bracketing."
 The plagiarized text is entirely within the bold-faced, bracketed sections.
O' See Appendix 11: Subject's Proposal Evaluation Form Submitted for the Source Proposal.
 3' See Appendix 1: Subject's NSF Proposal, Certification Page, NSF Form 1207 (10/97).
         Evidence of a Pattern

        The subject submitted the plagiarized material in three proposals - two to
[redacted] and one to NSF. Although the subject edited text surrounding the
plagiarized section and reorganized sections within the proposals, no changes were
made to the plagiarized text. Therefore, we do not contend that there is a pattern of
plagiarism, but instead view his continued use of the plagiarized material as an
unprofessional practice of utilizing the work of others without providing adequate
attribution.

         Seriousness

        O n a scale of the varieties of misconduct in science, we believe the amount of
plagiarism in this case is small. In our view, howeder, plagiarism derived from
violation of confidentiality of peer review is sufficiently serious to warrant significant
action by NSF to bolster the community's confidence in NSF's peer review process.

         Recommended NSF Action

        We conclude the subject violated the confidentiality of peer review when he
plagiarized text, formulas, and references from the source proposal; that this behavior
was a serious deviation from the practices of both the subject's research community as
well as the broader scientific community; and that it violated NSF's expectation of
how proposals should be reviewed and prepared.

       The University's actions in this matter reflect local, community-based
standards, which we are not charged to evaluate. The University's actions will amply
protect NSF's interests in this case so long as the subject remains at the University.
However, to protect the Federal interests if the subject relocates to a new institution,
we recommend that NSF take the following actions as a final disposition in this case:32

1. The subject should receive a letter of reprimand from the NSF Deputy Director
   informing him that he committed misconduct in science.33

2. For 2 years after the final disposition of this case, when proposals are submitted by
   the subject or on his behalf to NSF, he should be required to submit certifications
   to OIG that, to the best of his knowledge, they contain nothing that violates NSF's
   Misconduct in Science and Engineering regulation (45 C.F.R. part 689). 34



'* We believe that NSF should consider coordinating certifications and assurances with [redacted], to
ensure proper protection of federal interests.
33 This is a Group I action (see 45 C.F.R. § 689.2(a)(l)(i)).
34 This is a Group I1 action (see 45 C.F.R. 5 689.2(a)(2)(ii)).
3. For the same period, the subject should be required to ensure that his department
   chairperson, or equivalent, submits an assurance to OIG that, to the best of that
   person's knowledge, the submitted proposals do not contain any plagiarized
   materials and all source documents are properly cited.35

4. For the same period, the subject should be prohibited from participating in peer
   review for NSF. 36




j5   This is a Group 11action (see 45 C.F.R. § 689.2(a)(2)(ii)).
36   This is a Group I11 action (see 45 C.F.R. 5 689.2(a)(3)(iii)).
